No. 19-1059

 

IN THE

Supreme Court of the United States

ANGELA HAMM AND DAVID HAMM, PETITIONERS

Vv.

STATE OF TENNESSEE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF TENNESSEE

REPLY BRIEF FOR THE PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,997 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 5, 2020.

Colin Gacrdbiocan

Wilson-Epes Printing Co., Inc.

 
